   DEPARTMENT OF HEALTH & HUMAN SERVICES                                          Office of Inspector General


                                                                                  Region IX
                                                                                  Office of Audit Services
                                                                                  90 - 7'h Street, Suite 3-650
                                                                                  San Francisco, CA 94103
  MAY 072009
Report Number: A-09-08-00056

David Maxwell-Jolly, Ph.D.
Director
Department of Health Care Services
1501 Capitol Avenue, MS 0000
Sacramento, California 95814

Dear Dr. Maxwell-Jolly:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of California's Compliance With Demonstration
Project Requirements for Reimbursement of State Costs for Provision of Medicare Part D Drugs
(Claims Processed Through the Medicaid Management Information System)." We will forward
a copy of this report to the HHS action official noted below.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-09-08-00056 in all correspondence.

                                           Sincerely,



                                           Lori A. Ahlstrand
                                           Regional Inspector General
                                            for Audit Services


Enclosure


HHS Action Official:

Mr. Jonathan Blum, Acting Director
Center for Drug and Health Plan Choice (epe)
Centers for Medicare & Medicaid Services
200 Independence Avenue, SW.
314-G, HHH Building
Washington, DC 20201
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





    REVIEW OF CALIFORNIA'S

      COMPLIANCE WITH

   DEMONSTRATION PROJECT

      REQUIREMENTS FOR

   REIMBURSEMENT OF STATE

    COSTS FOR PROVISION OF

   MEDICARE PART D DRUGS

 CLAIMS PROCESSED THROUGH THE MEDICAID

    MANAGEMENT INFORMATION SYSTEM





                    Daniel R. Levinson

                     Inspector General


                        May 2009

                      A-09-08-00056

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofA udit Services

The Office of Audit Services (OAS) provides auditing services for Ill-IS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance oflll-lS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments oflll-lS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout Ill-IS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide Ill-IS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to Ill-IS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office ofCounsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on Ill-IS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving Ill-IS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY


BACKGROUND


Title I of the Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of 2003
amended Title XVIII ofthe Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. Despite CMS's efforts to ensure a smooth
transition to Medicare Part D, some full-benefit dually eligible beneficiaries did not enroll in or
were not assigned to a Part D plan. As a result, some States paid for these beneficiaries'
Medicare Part D drugs during the transition period.

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the "Reimbursement of State Costs for Provision of Part D Drugs"
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Act. On February 15,
2006, California submitted its "Section 402 Demonstration Application" (Medicare
demonstration application) to CMS. By submitting its Medicare demonstration application,
California agreed to pay for full-benefit dually eligible beneficiaries' drug claims overseen by
the Department of Health Care Services (the State agency). The State agency's participation in
the demonstration project covered drug claims with dates of service from January 1 through
March 31, 2006.

In May 2006, CMS drafted guidance specifying that States should not claim demonstration
project costs on Form CMS-64, "Quarterly Medicaid Statement of Expenditures for the Medical
Assistance Program" (CMS-64). The guidance also specified that if a claim for any
demonstration project costs had already been reported on the CMS-64, the State must make a
decreasing adjustment to a subsequent CMS-64 to remove those costs.

CMS reimbursed the State agency a total of$61,147,661 for Medicare demonstration project
drug costs. The State agency processed claims totaling $55,769,874 through its Medicaid
Management Information System (MMIS) and included this amount on its CMS-64s. The
remaining claims totaling $5,377,787 were processed through a separate system. For this audit,
we limited our review to the $55,769,874 of claims that the State agency processed through the
MMIS. We plan to review the remaining $5,377,787 in another audit.

OBJECTIVES

Our objectives were to determine whether the State agency (1) complied with certain provisions
of the Medicare demonstration application when claiming drug costs for full-benefit dually



                                                  1
eligible beneficiaries and (2) claimed drug costs to both the Medicaid program and the Medicare
demonstration project.

SUMMARY OF RESULTS

For the $55,769,874 in drug claims processed through the MMIS, the State agency complied
with certain provisions of the Medicare demonstration application when claiming drug costs for
full-benefit dually eligible beneficiaries. For example, the State agency ensured that claims were
for covered Part D drugs and for drug costs incurred during the demonstration project's effective
dates.

However, the State agency claimed drug costs to both the Medicaid program and the Medicare
demonstration project. In most cases, the State agency made a decreasing adjustment to the
CMS-64 in the same quarter or the following quarter. However, the State agency did not adjust
some drug costs claimed on the CMS-64s for the first and second quarters of 2006 until the
fourth quarter of2007. We are not making any recommendations in this report because the
demonstration project has ended and the State agency adjusted the CMS-64s to remove all
demonstration project costs before the start of our fieldwork.




                                                11
                               TABLE OF CONTENTS




INTRODUCTION                                                                       1


     BACKGROUND                                                                    1

         Medicare Part D Prescription Drug Benefit..                               1

         Full-Benefit Dually Eligible Beneficiaries                                1

         Medicare Part D Demonstration Project                                     1

         California's Participation in the Medicare Part D Demonstration Project   2


     OBJECTIVES, SCOPE, AND METHODOLOGY                                            3

          Objectives                                                               3

          Scope                                                                    3

          Methodology                                                              3


RESULTS OF AUDIT                                                                   4





                                          111
                                              INTRODUCTION


BACKGROUND

Medicare Part D Prescription Drug Benefit

Title I ofthe Medicare Prescription Drug, Improvement, and Modernization Act (MMA) of2003
amended Title XVIII of the Social Security Act (the Act) by establishing Medicare Part D.
Medicare Part D provides optional prescription drug coverage for individuals who are entitled to
Medicare Part A or enrolled in Medicare Part B. The Centers for Medicare & Medicaid Services
(CMS), which administers Medicare, contracts with private prescription drug plans and Medicare
Advantage plans to offer prescription drug benefits to eligible individuals.

Full-Benefit Dually Eligible Beneficiaries

Full-benefit dually eligible beneficiaries are eligible for benefits under both Medicare and
Medicaid. Pursuant to Title I, section 103(c), of the MMA and upon the implementation of
Medicare Part D on January 1, 2006, prescription drug coverage for these beneficiaries was
transferred from Medicaid to Medicare Part D. CMS took numerous actions to ensure that
full-benefit dually eligible beneficiaries continued to receive medications during the transition to
Medicare Part D. For example, if a beneficiary did not choose a prescription drug plan by
December 31, 2005, CMS randomly assigned the beneficiary to a plan. In addition, to facilitate
enrollment of dually eligible beneficiaries at the point of sale, CMS implemented a new
eligibility inquiry process for pharmacies to verify Part D plan assignments and employed
contractors.

Despite CMS's efforts to ensure a smooth transition to Medicare Part D, some full-benefit dually
eligible beneficiaries did not enroll in or were not assigned to a Part D plan. As a result, some
States paid for these beneficiaries' Medicare Part D drugs during the transition period.

Medicare Part D Demonstration Project

To reimburse States for drug costs and related administrative costs incurred during the transition
period, CMS implemented the "Reimbursement of State Costs for Provision of Part D Drugs"
Medicare demonstration project pursuant to section 402(a)(l)(A) of the Act.) The demonstration
project permitted Medicare to fully reimburse States for full-benefit dually eligible beneficiaries'
Part D drugs to the extent that the costs were not recoverable from a Medicare Part D plan?

To participate in the demonstration project and receive reimbursement for their incurred costs,
States were required to submit a signed "Section 402 Demonstration Application" (Medicare
demonstration application) to CMS. By submitting Medicare demonstration applications, States


(Demonstration provisions are codified at 42 U.S.c. § 1395b-l(a)(l)(A) and expressly made applicable to Medicare
Part D in section I860D-42(b) of the Act.

2In addition, the demonstration project provided payments to States for low-income subsidy-entitled beneficiaries'
(partial-benefit dually eligible beneficiaries) Part D drugs and for certain administrative costs.
agreed to (l) require pharmacies to bill the Part D plan before relying on State payment (i.e., the
State was the payer of last resort); (2) provide specific information to CMS on Part D drug
claims and administrative costs; (3) ensure that claims submitted were for covered Part D drugs;
(4) separate demonstration project claims from those payable under other programs; (5) submit
claims only for drug costs (not including beneficiary cost sharing) and administrative costs
incurred during the demonstration project's effective dates; (6) report to CMS the number of
claims, beneficiaries, and expenditures on a timely basis; and (7) ensure that Medicare funding
was not used as State Medicaid matching funds (State Medicaid Director Letter No. 06-001
(Feb. 2, 2006); CMS, Section 402 Demonstration Action Template: Reimbursement of State
Costs for Provision of Part D Drugs).

CMS required States to submit demonstration project claims directly to its contractor, Public
Consulting Group, which determined whether the claims were eligible for reimbursement. CMS
then reimbursed States for eligible claims.

In addition, in May 2006, CMS drafted guidance specifying that States must separately identify
and claim all demonstration project costs only through the demonstration project reconciliation
process. States were advised not to claim demonstration project costs on Form CMS-64,
"Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program" (CMS-64).
The guidance also specified that if a claim for any demonstration project costs had already been
reported on the CMS-64, the State must make a decreasing adjustment to a subsequent CMS-64
to remove those costs and claim them directly through the demonstration project reconciliation
process.

California's Participation in the Medicare Part D Demonstration Project

On February 15,2006, California, through the Department of Health Care Services (the State
agency), submitted its Medicare demonstration application to CMS. California agreed to pay for
full-benefit dually eligible beneficiaries' drug claims. The State agency's participation in the
demonstration project covered drug claims with dates of service from January 1 through
March 31, 2006.

The State agency processed the majority of drug claims for full-benefit dually eligible
beneficiaries through its Medicaid Management Information System (MMIS) and claimed the
amounts on its CMS-64s, which were subsequently reimbursed at California's Federal medical
assistance percentage (FMAP).3 The State agency submitted demonstration project claims to the
Public Consulting Group and subsequently received reimbursement from CMS totaling
$61,147,661. Subsequently, the State agency made adjustments to the CMS-64s to remove
demonstration project costs.




3The FMAP determines the Federal share of the Medicaid program. During our audit period (January 1 through
March 31, 2006), the FMAP for drug claims in California was 50 percent.



                                                      2

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State agency (1) complied with certain provisions
of the Medicare demonstration application when claiming drug costs for full-benefit dually
eligible beneficiaries and (2) claimed drug costs to both the Medicaid program and the Medicare
demonstration project.

Scope

The audit covered the State agency's Medicare demonstration project drug costs for the period
January 1 through March 31, 2006, claimed on the CMS-64s. CMS reimbursed the State agency
a total of $61 ,147,661 for these costs, representing 672,996 drug claims. The State agency
processed 641,482 claims totaling $55,769,874 through its Medicaid Management Information
System (MMIS) and included this amount on its CMS-64s. The remaining 31,514 claims
                                                                4
totaling $5,377,787 were processed through a separate system.

For this audit, we limited our review to the $55,769,874 of claims that the State agency
processed through the MMIS. We plan to review the remaining $5,377,787 in another audit. We
did not review whether the State agency complied with demonstration project requirements for
claiming administrative costs. In addition, we did not determine whether pharmacies attempted
to bill beneficiaries' Medicare Part D plans before relying on State payment. We reviewed only
those internal controls necessary to achieve our objectives.

We performed fieldwork from April through October 2008 at the State agency offices in
Sacramento and Rancho Cordova, California.

Methodology

To accomplish our objectives, we:

    •	   reviewed applicable laws, regulations, and guidance;

    •	   interviewed State agency officials to (1) obtain an understanding of their process for
         identifying and submitting full-benefit dually eligible beneficiary claims under the
         demonstration project and (2) determine whether they separated demonstration project
         claims from those payable under other programs;

    •	   obtained from CMS a database of 672,996 drug claims for full-benefit dually eligible
         beneficiaries paid to the State agency under the demonstration project for the period
         January 1 through March 31, 2006;



4These claims were for full-benefit dually eligible beneficiaries residing in facilities run by the Department of
Developmental Services.


                                                           3

   •	 obtained the State agency's decreasing adjustments to the CMS-64s for prescribed drugs
      related to the Medicare demonstration project costs;

   •	 reconciled the total dollar amount of drug claims that the State agency reported on its
      CMS-64s to the decreasing adjustments reported on its CMS-64s;

   •	 reviewed a judgmentally selected sample of 28 drug claims paid to the State agency
      under the demonstration project to detennine whether (l) the dates of service were during
      the demonstration project's effective dates, (2) the drugs were covered by Medicare
      Part D, and (3) any cost-sharing amounts (copayments) on the part of the beneficiary
      were not included in the claim;

   •	 reviewed a judgmentally selected sample of 23 beneficiaries whose drug claims were
      paid under the demonstration project to detennine whether these beneficiaries were
      dually eligible;

   •	 reviewed guidance issued by the State agency to the pharmacies, including guidance
      requiring them to submit Part D-eligible drug claims to Part D plans before billing the
      State agency; and

   •	 reviewed the State agency's procedures to ensure that Medicare funding under the
      demonstration project was not used as State Medicaid matching funds.

We conducted this perfonnance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perfonn the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                    RESULTS OF AUDIT

For the $55,769,874 in drug claims processed through the MMIS, the State agency complied
with certain provisions of the Medicare demonstration application when claiming drug costs for
full-benefit dually eligible beneficiaries. Specifically, the State agency (1) provided specific
infonnation to CMS on Part D drug claims; (2) ensured that claims submitted were for covered
Part D drugs; (3) separated demonstration project claims from those payable under other
programs; (4) submitted claims only for drug costs incurred during the demonstration project's
effective dates; (5) reported to CMS the number of claims, beneficiaries, and expenditures on a
timely basis; and (6) ensured that Medicare funding was not used as State Medicaid matching
funds.

However, the State agency claimed drug costs to both the Medicaid program and the Medicare
demonstration project. In most cases, the State agency made a decreasing adjustment to the
CMS-64 in the same quarter or the following quarter. However, the State agency did not adjust
some drug costs claimed on the CMS-64s for the first and second quarters of 2006 until the
fourth quarter of 2007. We are not making any reconunendations in this report because the


                                                4

demonstration project has ended and the State agency adjusted the CMS-64s to remove all
demonstration project costs before the start of our fieldwork.




                                              5

